                                                                                  -   ----------~~.--   --~-   ...   ..,.,-.~.-----~--.-   ----
                                                                                         \




                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: 107010001                                                                         Page 1 of 1



          We received numerous' allegations regarding an institution's] mismanagement of NSF grant
          funds. We issued a subpoena for all institution records pertaining to seven NSF awards? We
          conducted interviews and reviewed the financial information and source documentation provided
          by the institution. We determined the allegations were unsubstantiated; however, we identified
          numerous concerns which should be addressed through an audit. Therefore, we made a referral
          to the NSF OIG Office of Audit.                                              !




                    Accordingly, this case is closed.




NSF OlG Fonn 2 (] 1102)
